         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Special Report



       Fiscal Year 2007
       Federal Information Security
       Management Act Report

       Status of EPA’s Computer Security Program


       Report No. 2007-S-00003

       September 25, 2007
Report Contributors:	   Rudolph M. Brevard
                        Vincent Campbell
                        Sejal Shah
                        Sabrena Stewart
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL



                                       September 25, 2007

MEMORANDUM

SUBJECT:	         Fiscal Year 2007 Federal Information Security Management Act Report:
                  Status of EPA’s Computer Security Program
                  Report No. 2007-S-00003


FROM:             Patricia H. Hill
                  Assistant Inspector General for Mission Systems

TO:	              Stephen L. Johnson
                  Administrator


Attached is the Office of Inspector General’s Fiscal Year 2007 Federal Information Security
Management Act Reporting Template, as prescribed by the Office of Management and Budget
(OMB). In addition, Appendix A synopsizes the results of our significant Fiscal Year 2007
information security audits.

In accordance with OMB reporting instructions, I am forwarding this report to you for
submission, along with the Agency’s required information, to the Director, Office of
Management and Budget.
                                                                   Section C - Inspector General: Questions 1 and 2
Agency Name:                                               Environmental Protection Agency                                                      Submission date:              21-Sep-07
                                                                               Question 1: FISMA Systems Inventory


1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact level (high,
moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an agency or other
organization on behalf of an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self reporting by contractors
does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared
responsibility for FISMA compliance.


                                               Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing

2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of systems which
have: a current certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                                                                         Question 1                                                    Question 2
                                                                                      a.                     b.                  c.                    a.                 b.                 c.
                                                                                Agency Systems       Contractor Systems   Total Number of          Number of          Number of         Number of
                                                                                                                             Systems            systems certified systems for which systems for which
                                                                                                                           (Agency and           and accredited    security controls contingency plans
                                                                                                                            Contractor                             have been tested have been tested
                                                                                                                             systems)                              and reviewed in in accordance with
                                                                                                                                                                     the past year         policy



                                                                                                                                      Total
                                                          FIPS 199 System                  Number          Number   Total                     Total       Percent     Total   Percent     Total   Percent
Bureau Name                                                                    Number              Number                            Number
                                                          Impact Level                    Reviewed        Reviewed Number                    Number       of Total   Number   of Total   Number   of Total
                                                                                                                                    Reviewed
Office of Administrator                                   High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    2          0          0         0         2           0         0                   0                   0
                                                          Low                         1          0          0         0         1           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                   3          0          0         0         3           0         0                   0                   0
Office of Air and Radiation                               High                        1          1          0         0         1           1         1      100%         0        0%         0
                                                          Moderate                   11          1          1         0        12           1         0        0%         1      100%         0
                                                          Low                         6          0          1         0         7           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                  18          2          2         0        20           2         1       50%         1       50%         0
Office of Admininstration and Resource Management         High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                   11          2          2         0        13           2         1       50%         1       50%         0
                                                          Low                         0          0          0         0         0           0         0                   0                   0
                                                          Not Categorized                        0          0         0         0           0         0                   0                   0
                                                          Sub-total                  11          2          2         0        13           2         1       50%         1       50%         0
Office of Chief Financial Officer                         High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                   16          4          0         0        16           4         3       75%         1       25%         0
                                                          Low                         2          0          0         0         2           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                  18          4          0         0        18           4         3       75%         1       25%         0
Office of Environmental Information                       High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                   16          0          6         1        22           1         1      100%         0         0%        0
                                                          Low                        16          0          3         0        19           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                  32          0          9         1        41           1         1      100%         0                   0
Office of General Counsel                                 High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    1          0          0         0         1           0         0                   0                   0
                                                          Low                         0          0          0         0         0           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                   1          0          0         0         1           0         0                   0                   0
Office of International Activities                        High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    0          0          0         0         0           0         0                   0                   0
                                                          Low                         0          0          0         0         0           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                   0          0          0         0         0           0         0                   0                   0
Office of Inspector General                               High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    7          1          0         0         7           1         1      100%         0                   0
                                                          Low                         1          0          0         0         1           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                   8          1          0         0         8           1         1      100%         0                   0
Office of Prevention Pesticides and Toxic Substances      High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    6          1          1         0         7           1         0        0%         1      100%         0
                                                          Low                         1          0          0         0         1           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                   7          1          1         0         8           1         0                   1      100%         0
Office of Research and Development                        High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    7          2          0         0         7           2         1       50%         1       50%         0
                                                          Low                         8          0          0         0         8           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                  15          2          0         0        15           2         1       50%         1       50%         0
Office of Solid Waste and Emergency Response              High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    4          1          1         0         5           1         0                   1      100%         0
                                                          Low                         4          0          1         0         5           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                   8          1          2         0        10           1         0                   1      100%         0
Office of Enforcement and Compliance Assurance            High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    8          1          0         0         8           1         0                   1      100%         0
                                                          Low                         3          0          0         0         3           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                  11          1          0         0        11           1         0                   1      100%         0
Office of Water                                           High                        0          0          0         0         0           0         0                   0                   0
                                                          Moderate                    8          1          0         0         8           1         0                   1      100%         0
                                                          Low                         0          0          0         0         0           0         0                   0                   0
                                                          Not Categorized             0          0          0         0         0           0         0                   0                   0
                                                          Sub-total                   8          1          0         0         8           1         0                   1      100%         0




                                                                                                     1
                                                                  Section C - Inspector General: Questions 1 and 2
Agency Name:                                             Environmental Protection Agency                                                   Submission date:              21-Sep-07
                                                                                                      Question 1                                                  Question 2
                                                                                     a.                   b.                   c.                  a.                 b.                 c.
                                                                               Agency Systems     Contractor Systems    Total Number of        Number of          Number of         Number of
                                                                                                                           Systems          systems certified systems for which systems for which
                                                                                                                         (Agency and         and accredited    security controls contingency plans
                                                                                                                          Contractor                           have been tested have been tested
                                                                                                                           systems)                            and reviewed in in accordance with
                                                                                                                                                                 the past year         policy



                                                                                                                                  Total
                                                         FIPS 199 System                Number          Number   Total                    Total      Percent     Total   Percent     Total   Percent
Bureau Name                                                                   Number            Number                           Number
                                                         Impact Level                  Reviewed        Reviewed Number                   Number      of Total   Number   of Total   Number   of Total
                                                                                                                                Reviewed
Region 1                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        0         0         0          1       0          0                   0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   1        0         0         0          1       0          0                   0                    0
Region 2                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    2        0         0         0          2       0          0                   0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   2        0         0         0          2       0          0                   0                    0
Region 3                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        1         0         0          1       1          1    100%           0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   1        1         0         0          1       1          1    100%           0                    0
Region 4                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        0         0         0          1       0          0                   0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   1        0         0         0          1       0          0                   0                    0
Region 5                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    2        0         0         0          2       0          0                   0                    0
                                                    Low                         1        0         0         0          1       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   3        0         0         0          3       0          0                   0                    0
Region 6                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        0         0         0          1       0          0                   0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   1        0         0         0          1       0          0                   0                    0
Region 7                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        0         0         0          1       0          0                   0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   1        0         0         0          1       0          0                   0                    0
Region 8                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        0         0         0          1       0          0                   0                    0
                                                    Low                         1        0         0         0          1       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   2        0         0         0          2       0          0                   0                    0
Region 9                                            High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        0         1         0          2       0          0                   0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   1        0         1         0          2       0          0                   0                    0
Region 10                                           High                        0        0         0         0          0       0          0                   0                    0
                                                    Moderate                    1        0         0         0          1       0          0                   0                    0
                                                    Low                         0        0         0         0          0       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Sub-total                   1        0         0         0          1       0          0                   0                    0
Agency Totals                                       High                        1        1         0         0          1       1          1    100%           0        0%          0
                                                    Moderate                  109       15        12         1       121       16          8      50%          8       50%          0
                                                    Low                        44        0         5         0         49       0          0                   0                    0
                                                    Not Categorized             0        0         0         0          0       0          0                   0                    0
                                                    Total and 1 Contractor system)
Comments: OIG reviewed 17 EPA systems (16 Agency systems                      154 for compliance
                                                                                        16        17 Federal Certification
                                                                                                 with        1       171 and Accreditation
                                                                                                                               17          9(C&A) 53%          8
                                                                                                                                                  or security controls 47%          0
                                                                                                                                                                       testing requirements.
For each system selected for review, the OIG evaluated the system for compliance with either the Federal C&A or the security control testing requirements. As such, the percentage columns for
questions 2a & b represent the percentage of systems evaluated in relationship to the total number of systems operated by the respective EPA program or regional office. Likewise, the percentage rate
does not represent the rate in which the reviewed system complied with the evaluated Federal security requirement. The OIG did not test EPA systems for compliance with Federal contingency plan
requirements.




                                                                                                  2
                                             Section C - Inspector General: Question 3
Agency Name:   Environmental Protection Agency
               Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.     The agency performs oversight and evaluation to ensure information systems used or operated by a
               contractor of the agency or other organization on behalf of the agency meet the requirements of
               FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

               Agencies are responsible for ensuring the security of information systems used by a contractor of their
               agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet
               the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider,
                                                                                                                              Almost Always (96-100% of
               may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                                                                                                              the time)
               Response Categories:
                - Rarely- for example, approximately 0-50% of the time
                - Sometimes- for example, approximately 51-70% of the time
                - Frequently- for example, approximately 71-80% of the time
                - Mostly- for example, approximately 81-95% of the time
                - Almost Always- for example, approximately 96-100% of the time

               The agency has developed a complete inventory of major information systems (including major
      3.b.     national security systems) operated by or under the control of such agency, including an
               identification of the interfaces between each such system and all other systems or networks,
               including those not operated by or under the control of the agency.
                                                                                                                            Inventory is 96-100%
               Response Categories:                                                                                         complete
                - The inventory is approximately 0-50% complete
                - The inventory is approximately 51-70% complete
                - The inventory is approximately 71-80% complete
                - The inventory is approximately 81-95% complete
                - The inventory is approximately 96-100% complete

      3.c.     The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                  Yes

               The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                             Yes
               contractor of the agency or other organization on behalf of the agency. Yes or No.

      3.e.     The agency inventory is maintained and updated at least annually. Yes or No.                                            Yes

               If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems by
      3.f.     Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit 53 (if
               known), and indicate if the system is an agency or contractor system.

                                                                                                                               Agency or
                                                                                                Exhibit 53 Unique Project
                         Component/Bureau                          System Name                                                 Contractor
                                                                                                     Identifier (UPI)
                                                                                                                                system?




               Number of known systems missing from
               inventory:




                                                                       3
                                                 Section C - Inspector General: Questions 4 and 5
Agency Name: Environmental Protection Agency
                                    Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate
the degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or necessary, include
comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                   The POA&M is an agency-wide process, incorporating all known IT security weaknesses
       4.a.        associated with information systems used or operated by the agency or by a contractor of the       Almost Always (96-100% of the time)
                   agency or other organization on behalf of the agency.
                   When an IT security weakness is identified, program officials (including CIOs, if they own or
       4.b.                                                                                                           Almost Always (96-100% of the time)
                   operate a system) develop, implement, and manage POA&Ms for their system(s).
                   Program officials and contractors report their progress on security weakness remediation to the
       4.c.                                                                                                           Almost Always (96-100% of the time)
                   CIO on a regular basis (at least quarterly).

                   Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly
       4.d.                                                                                                           Almost Always (96-100% of the time)
                   basis.

       4.e.        IG findings are incorporated into the POA&M process.                                               Almost Always (96-100% of the time)

                   POA&M process prioritizes IT security weaknesses to help ensure significant IT security
       4.f.                                                                                                           Almost Always (96-100% of the time)
                   weaknesses are addressed in a timely manner and receive appropriate resources.
                   POA&M process comments:




                                         Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and
standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and
Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk
assessments and security plans.

                   The IG rates the overall quality of the Agency's certification and accreditation process as:

                   Response Categories:
                    - Excellent
       5.a.                                                                                                           Satisfactory
                    - Good
                    - Satisfactory
                    - Poor
                    - Failing

                   The IG's quality rating included or considered the following aspects of the C&A process:           Security plan                        X
                   (check all that apply)
                                                                                                                      System impact level                  X
                                                                                                                      System test and evaluation
                                                                                                                      Security control testing             X
       5.b.
                                                                                                                      Incident handling
                                                                                                                      Security awareness training
                                                                                                                      Configurations/patching
                                                                                                                      Other:
                   Comment: The OIG evaluated nine EPA systems for compliance with selected Federal C&A requirements. Our review disclosed that all
                   evaluated systems were complaint with the selected requirements. See question 5b for the evaluated C&A factors. Based on our limited
                   review, we rated the Agency's C&A process as Satisfactory.




                                                                                 4
                                               Section C - Inspector General: Questions 6 and 7
Agency Name: Environmental Protection Agency
                       Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

              Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA)
     6.a.
              process, as discussed in Section D II.4 (SAOP reporting template), including adherence to
              existing policy, guidance, and standards.

              Response Categories:
               - Response Categories:                                                                                                Satisfactory
               - Excellent
               - Good
               - Satisfactory
               - Poor
               - Failing
             Comments:
             The EPA has implemented a Privacy Impact Assessment (PIA) process. The procedures are available on the Agency's Intranet. The OIG's
             evaluation was based on whether applicable PIA guidance exist, was current, and available to the EPA personnel. The OIG did not test EPA's
             implementation of the PIA guidance.



              Provide a qualitative assessment of the agency's progress to date in implementing the
     6.b.     provisions of M-06-15, "Safeguarding Personally Identifiable Information" since the most
              recent self-review, including the agency's policies and processes, and the administrative,
              technical, and physical means used to control and protect personally identifiable
              information (PII).

              Response Categories:                                                                                                   Satisfactory
               - Response Categories:
               - Excellent
               - Good
               - Satisfactory
               - Poor
               - Failing
             Comments:
             The Agency has developed an interim policy to address safeguarding personnally identifiable information. Additionally, employees were made
             aware of the importance of safeguardning PII through the Agency's on-line FY2007 Information Security Awareness Training. However, the OIG
             has identified some areas where EPA could improve its practices for approving the download and access to PII. The OIG plans to issue a
             separate memorandum to the Chief Information Officer in October 2007 documenting our findings.


                                                          Question 7: Configuration Management

              Is there an agency-wide security configuration policy? Yes or No.                                                          Yes
     7.a.
             Comments:




              Approximate the extent to which applicable information systems apply common security
     7.b.     configurations established by NIST.

              Response categories:
               -   Rarely- for example, approximately 0-50% of the time
               -   Sometimes- for example, approximately 51-70% of the time
               -   Frequently- for example, approximately 71-80% of the time
               -   Mostly- for example, approximately 81-95% of the time
               -   Almost Always- for example, approximately 96-100% of the time
             Comments: The OIG did not test EPA systems for compliance with NIST common security configurations. The OIG hired a contractor to
             evaluate EPA’s standard configuration documents (SCD) against NIST requirements, if available, or industry best practices. The contractor
             noted that for all EPA SCDs selected for review, the SCD’s content was consistent with a published authoritative document for securing the
             applicable operating system platform. However, the contractor identified that EPA should take steps to update six of the reviewed SCDs.
             Based on interviews with EPA officials, the contractor learnt that EPA is currently updating five of the SCDs in question. The contractor will
             provide EPA with the final analysis for each reviewed SCD in a separate document.




                                                                                   5

                                          Section C - Inspector General: Questions 8, 9, 10 and 11
Agency Name:       Environmental Protection Agency
                                                            Question 8: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law
enforcement. If appropriate or necessary, include comments in the area provided below.

                 The agency follows documented policies and procedures for identifying and reporting
      8.a.                                                                                                                    Yes
                 incidents internally. Yes or No.
                 The agency follows documented policies and procedures for external reporting to US-
      8.b.                                                                                                                    Yes
                 CERT. Yes or No. (http://www.us-cert.gov)
                 The agency follows documented policies and procedures for reporting to law enforcement.
      8.c.                                                                                                                    Yes
                 Yes or No.
                 Comments:




                                                       Question 9: Security Awareness Training
Has the agency ensured security awareness training of all employees, including contractors and those
employees with significant IT security responsibilities?

Response Categories:
 - Rarely- or approximately 0-50% of employees                                                             Almost Always (96-100% of employees)
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees
                                                        Question 10: Peer-to-Peer File Sharing
Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness training,
                                                                                                                              Yes
ethics training, or any other agency wide training? Yes or No.
                                                   Question 11: E-Authentication Risk Assessments
The agency has completed system e-authentication risk assessments. Yes or No.                                                  No




                 Comments: EPA has not completed e-authentication risk assesments for four applications.




                                                                           6
                                                                                   Appendix A

         Summary of Significant Fiscal Year 2007
                 Security Control Audits
During Fiscal Year 2007, the U.S. Environmental Protection Agency’s (EPA’s) Office of
Inspector General (OIG) initiated numerous audits of EPA’s information technology security
program and information systems. The following synopsizes key findings.

1. EPA Could Improve Processes for Managing Contractor Systems and
   Reporting Incidents, Report No. 2007-P-00007, January 11, 2007

EPA had not established procedures to ensure identification of all contractor systems. EPA has
not ensured that information security requirements were accessible by the contractors and
appropriately maintained. As a result, EPA system inventories may not include all appropriate
contractor systems, and its contractors may not be implementing adequate security safeguards.

Although EPA offices were aware of the Agency’s computer security incident response policy,
many offices lacked local reporting procedures, had not fully implemented automated monitoring
tools, and did not provide sufficient training on local procedures. EPA offices also did not have
access to network attack trend information necessary to implement proactive defensive measures.

In response to our final report, Office of Environmental Information officials indicated that they
had complete actions on four of the report recommendations. The Office of Environmental
Information is continuing to work on updating the Agency’s Information Security Manual, which
will provide Agency officials procedures for determining when contractor information systems
are subject to Federal information security requirements. EPA has also updated its Computer
Security Incident Response Capability procedures to better define the local incident handling
procedures. EPA indicated that it is also providing regular training to the information security
community on prioritizing security incidents and escalating notifications

2. EPA Could Improve Controls Over Mainframe System Software, Report No.
   2007-P-00008, January 29, 2007

The contractor that performed this review for the OIG identified several weaknesses in EPA’s
internal controls over its mainframe system software, including:

   •	   Roles and responsibilities were not clearly assigned.
   •	   Change controls were not performed in accordance with Agency policies.
   •	   Policies, procedures, and guides could be strengthened.
   •	   Security settings for sensitive datasets and programs were not effectively configured or
        implemented.

As a result of these weaknesses, EPA is exposed to greater risk since its mainframe system
software could potentially be comprised.
                                                 7

3. 	 EPA Needs to Strengthen Financial Database Security Oversight and Monitor
     Compliance, Report No. 2007-P-00017, March 29, 2007

We discovered weaknesses in how EPA offices (1) monitor databases for known security
vulnerabilities, (2) communicate the status of critical system patches, and (3) monitor the use of
and access to database administrator accounts and privileges. These weaknesses exist because
EPA had not implemented security processes to (1) actively monitor systems that share data with
the Integrated Financial Management System, (2) share and collect information on the
implementation of critical system patches, and (3) effectively manage access controls. Without
these processes, the integrity of critical data in key Office of the Chief Financial Officer systems
could be undermined. As a result, the Office of the Chief Financial Officer cannot ensure that
the integrity of the data it provides to senior Agency officials is adequately protected. We also
identified specific technical weaknesses in three of the financial databases that share data with
the Integrated Financial Management System.

4. EPA Needs to Strengthen Its Privacy Program Management Controls, Report
   No. 2007-P-00035, September 17, 2007

EPA needs to set up a more comprehensive management control structure to govern and oversee
the program. In particular, EPA needs to establish goals and activities for the Privacy Program
and measure progress. Further, EPA needs to update its Privacy Program policies and establish
processes to manage and make these policies available to responsible EPA personnel. Also, EPA
needs to set up compliance and accountability processes to ensure adherence with key Privacy
Program tenets. These weaknesses existed because of the low priority EPA managers placed on
the Privacy Program. A major loss of privacy information could result in substantial harm,
embarrassment, and inconvenience to individuals. It could lead to identity theft or other
fraudulent use of the information, which in addition to harming the individuals involved could be
costly to the Agency and its reputation.




                                                  8

                                                                               Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Followup Official
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Technology Operations and Planning
Senior Agency Information Security Officer
Acting Inspector General




                                              9

